No. 19-123

Su The
Supreme Court of the United States

 

SHARONELL FULTON, ET AL.,

Petitioners,
v.

CITY OF PHILADELPHIA, ET AL.,

Respondents.

 

CERTIFICATE OF SERVICE

Walter M. Weber, a member of the Bar of this Court and an attorney for amicus, pursuant to
Rule 29.5(b), hereby certifies that three copies of the Amicus Brief of Life Legal, et al., in Support
of Petitioners have this day been served upon all parties required to be served, in compliance with
Rule 29.3, by first-class mail, postage prepaid, mailed from Washington, D.C., to counsel at the
addresses below. In addition, a PDF version of this document is being transmitted electronically
to counsel listed below.

Mark Leonard Rienzi Leslie Cooper
The Becket Fund for Religious Liberty American Civil Liberties Union.
1200 New Hampshire Avenue, NW, Suite 700 125 Broad Street
Washington, DC 20036 New York, NY 10004
(202) 955-0095 (212) 519-7815
mrienzi@becketlaw.org lcooper@aclu.org
Counsel for Petitioners Counsel for Intervenor-Respondents
Neal Kumar Katyal
Hogan Lovells US LLP

555 Thirteenth St., NW
Washington, DC 20004
(202) 637-5528

- neal.katyal@hoganlovells.com

ff | ff Ly / Me L ) Counsel for Respondent City et al.
Meee ih __

Walter M. Weber

  

June 3, 2020

 
